Audit Report 99-19
FOLLOW-UP REVIEW
IMMIGRATION AND NATURALIZATION SERVICE
MANAGEMENT OF AUTOMATION PROGRAMS
Audit Report 99-19, (7/99)
TABLE OF CONTENTS
EXECUTIVE SUMMARY
INTRODUCTION
FINDINGS AND RECOMMENDATIONS
I. STATUS OF THE AUTOMATION PROJECTS
A. Efforts to Monitor and Control Project Costs
B. Progress Toward Timely Project Completions
C. Life-Cycle Management
D. Outcome-Based Performance Measurements
E. Causes for Lack of INS Awareness Over Project Status
F. Recent INS Developments to Initiate Corrective Actions
G. Recommendations
II. COSTS AND FUNDING
A. INS Reported Costs for Automation Programs
B. Reliability of Reported Costs for Automation
Programs
C. Allocating Funds to Ensure Implementation of
Essential Systems
D. Semiannual Funding Profiles
E. Maximizing User Fees
F. Recent INS Developments to Initiate Corrective Actions
G. Recommendations
III. ADMINISTRATION AND MONITORING OF CONTRACTS
A. Monitoring Contract Costs
B. Task Order Approvals
C. Contract Cost Management
D. Recent INS Developments to Initiate Corrective
Actions
E. Recommendation
IV. DATA INTEGRITY AND RELIABILITY
Recommendation
V. IDENT EQUIPMENT INVENTORY
A. Recent INS Developments to Initiate Corrective Actions
B. Recommendations
VI. COMPATIBILITY OF AUTOMATION PROJECTS
APPENDIX I - STATEMENT ON COMPLIANCE WITH LAWS AND
REGULATIONS
APPENDIX II - STATEMENT ON MANAGEMENT CONTROLS
APPENDIX III - OBJECTIVES, SCOPE, AND METHODOLOGY
APPENDIX IV - BACKGROUND
APPENDIX V - INS RESPONSE TO THE DRAFT REPORT
APPENDIX VI - OIG, AUDIT DIVISION ANALYSIS AND SUMMARY
OF ACTIONS NECESSARY TO CLOSE THE REPORT
EXECUTIVE SUMMARY
In FY 1995, the Immigration and Naturalization Service (INS), Office of Information
Resources Management (OIRM), began work on INS' latest efforts to improve automated
systems by developing accurate, timely, and integrated databases. At the time of our
initial audit, these initiatives had been reorganized into eight automation programs. Our
initial audit focused on six risk areas that we had originally identified and communicated
to the INS Commissioner in September 1995.
Our initial audit report, issued in March 1998, determined that INS had not adequately
managed its automation programs despite the fact that it had already spent almost $500
million on these programs during FYs 1995 and 1996. As a result, INS risked that: (1)
completed projects would not meet the overall goals of the automation programs, (2)
completion of the automation programs would be significantly delayed, and (3) unnecessary
costs could occur. At the time of our initial audit, INS expected to spend about $2.6
billion on its automation programs through FY 2001.
Our current audit determined that INS still does not adequately manage its automation
programs despite the fact that it has now spent over $800 million on these programs during
FYs 1995 to 1997. As a result, (1) estimated completion dates for some automation projects
have been delayed without explanations for the delays, (2) costs continue to spiral
upward with no justification for how the funds are spent, and (3) projects are nearing
completion with no assurance that they will meet performance and functional requirements.
Specifically, we found that project costs continued to increase during FY 1997 with no
established baselines against which actual costs incurred could be compared and no
justifications for the increases. The OIRM managers did not adequately monitor
FY 1997 planned project tasks to ensure timely completion. Monthly progress reviews
intended to track the progress of INS automation projects were incomplete, unclear, and
untimely. Further, INS had not developed comprehensive performance measures to ensure that
completed projects, once deployed, will meet intended goals. Finally, serious deficiencies
existed in OIRM compliance with the INS system development life-cycle process. As a
result, INS had no assurance that systems would meet performance and functional
requirements.
The INS now expects to spend about $2.8 billion on its automation programs;1 however, the ultimate cost for INS automation projects is
uncertain because data relating to actual costs incurred are unreliable and projected cost
estimates are unsupported. Also, despite uncertain funding and rising costs that could
significantly delay completion of its automation projects, INS still has not developed a
contingency plan to ensure that at least its mission-essential programs, which should be
its top priority, are implemented. Further complicating INS' cost tracking problems was
the breakdown of OIRM's primary cost reporting system for its $2.8 billion automation
programs.
The INS had made significant progress in obtaining timely, written task order
authorizations for its Information Technology Partnership (ITP) contractor, and taking
sufficient actions to plan for the expiration of its major contract for automation
programs. However, INS was still unsuccessful in procuring independent audits of its ITP
contract costs; consequently, INS had only limited assurance concerning the validity of
contractor invoices totaling over $280 million.
We also found that INS had not implemented adequate safeguards to ensure the accuracy
of existing data that will be used by systems currently being developed or reengineered.
Moreover, INS had not implemented adequate safeguards to ensure the adequacy of future
data inputs.
We found that INS took significant steps since our previous audit to better manage its
inventory of Automated Fingerprint Identification System (IDENT) equipment; however, we
did note that IDENT equipment costing $520,000 remained in the INS warehouse inventory for
more than one year awaiting deployment.
Finally, we found that INS had no viable option for electronically exchanging its data
with the Executive Office for Immigration Review (EOIR).
Our audit objectives, scope, and methodology appear in Appendix I. The details of our
work are contained in the Findings and Recommendations section of the report.
1 As discussed on page 17 of this report, of the $2.8
billion INS expects to spend on its automation programs through FY 2001 and beyond,
approximately $1.1 billion will be spent on investment costs, $1 billion on Operations and
Maintenance costs, and $.7 billion on overhead costs. The INS stated that these figures
include funding for programs that are not for information technology (for example,
sensors, radios, and night vision equipment). However, we were unable to specifically
identify how much of INS' automation program funding is extraneous to information
technology.
#####